                                              UNITED STATES
                               OFFICE OF PERSONNEL MANAGEMENT
                                        WASHINGTON. DC 20415-1100


       OFFICE OF
THE INSPECTOR GENERAL
                                                 July 29, 2011


                                                                        Report No.7A-PR-00-11-078


          Mary L. Kendall
          Acting Inspector General
          Office of Inspector General
          Department of the Interior 

          1849 C Street, N. W. , MS 4428 

          Washington, DC 20240

          Subject: Report on the System Review of the U.S. Department of the Interior Office of
                   Inspector General Audit Organization

          Dear Ms. Kendall:

          We have reviewed the system of quality control for the audit organization of the
          Department of the Interior (DOl) Office of Inspector General (OIG) in effect for the year
          ended September 30, 2010. A system of quality control encompasses the DOl OIG ' s
          organizational structure and the policies adopted and procedures established to provide it
          with reasonable assurance of conforming with Government Auditing Standards. The
          elements of quality control are described in Government Auditing Standards. The DOl
          OIG is responsible for designing a system of quality control and complying with it to
          provide the DOl OIG with reasonable assurance of performing and reporting in
          conformity with applicable professional standards in all material respects. Our
          responsibility is to express an opinion on the design of the system of quality control and
          the DOl OIG' s compliance therewith based on our review.

          Our review was conducted in accordance with Government Auditing Standards and
          guidelines established by the Council of the Inspectors General on Integrity and
          Efficiency (CIGIE). During our review, we interviewed DOl OIG personnel and
          obtained an understanding of the nature of the DOl OIG audit organization, and the
          design of the DOl OIG' s system of quality control sufficient to assess the risks implicit in
          its audit function. Based on our assessments, we selected engagements and
          administrative files to test for conformity with professional standards and compliance
          with the DOl OIG' s system of quality control. The engagements selected represented a
          reasonable cross-section of the DOl OIG' s audit organization, with emphasis on higher­
          risk engagements. Prior to concluding the review, we reassessed the adequacy of the
          scope of the peer review procedures and met with DOl OIG management to discuss the
          results of our review. We believe that the procedures we performed provide a reasonable
          basis for our opinion.



                                                                                                           OIG-01
                                                                                                          May 1999
Mary L. Kendall, Acting Inspector General                                                    2


In performing our review, we obtained an understanding of the system of quality control
for the DOl OIG's audit organization. In addition, we tested compliance with the DOl
OIG's quality control policies and procedures to the extent we considered appropriate.
These tests covered the application of the DOl OIG's policies and procedures on selected
engagements. Our review was based on selected tests; therefore, it would not necessarily
detect all weaknesses in the system of quality control or all instances of noncompliance
with it.

There are inherent limitations in the effectiveness of any system of quality control, and
therefore noncompliance with the system of quality control may occur and not be
detected. Projection of any evaluation of a system of quality control to future periods is
subject to the risk that the system of quality control may become inadequate because of
changes in conditions, or because the degree of compliance with the policies or
procedures may deteriorate.

In addition to reviewing its system of quality control to ensure adherence with
Government Auditing Standards, we applied certain limited procedures in accordance
with guidance established by the CIGIE related to the DOl OIG's monitoring of
engagements performed by Independent Public Accountants (IP A) under contract where
the IPA served as the principal auditor. It should be noted that monitoring of
engagements performed by IP As is not an audit and therefore is not subject to the
requirements of Government Auditing Standards. The purpose of our limited procedures
was to determine whether the DOl OIG had controls to ensure IPAs performed contracted
work in accordance with professional standards. However, our objective was not to
express an opinion and accordingly, we do not express an opinion, on the DOl OIG's
monitoring of work performed by IPAs.

In our opinion, the system of quality control for the audit organization of DOl OIG in
effect for the year ended September 30, 2010, has been suitably designed and complied
with to provide the DOl OIG with reasonable assurance of performing and reporting in
conformity with applicable professional standards in all material respects. Federal audit
organizations can receive a rating ofpass, pass with deficiencies, or fail. The DOl OIG
has received a peer review rating ofpass.

We noted, however, conditions that warrant your attention, though they did not impact
our opinion. These matters are described in more detail in Enclosure 1 to this report,
under findings and recommendations.

Enclosure 2 to this report identifies the offices of the DOl OIG that we visited and the
engagements that we reviewed.

The DOl OIG Assistant Inspector General for Audits, Inspections, and Evaluations
concurred with our findings and recommendations in a July 22, 2011 response to our draft
report. The DOl OIG plans to take action to address our findings and revise its policies
and quality assurance review process to emphasize the conditions noted in our report.
Mary L. Kendall, Acting Inspector General                                                  3


The Office of Audits, Inspections, and Evaluations plans to have its new policies issued
and the new quality assurance process in place by September 30, 2011. The Assistant
Inspector General for Audits, Inspections, and Evaluations' response is included as
Exhibit A.

I would like to express my sincere appreciation for the cooperation and consideration
extended to my staff. If you have any questions, please contact me or Michael R. Esser,
Assistant Inspector General for Audits, at 202-606-1200.

                                             Sincerely,

                                            6l'~~~L~/
                                             Patrick E. McFari~;;    'V---.-.,
                                             Inspector General

Enclosure
                                                                                Enclosure 1 

                                                                                Page 1 of3 

                      FINDINGS AND RECOMMENDATIONS

Audit Risk Assessment

We found that the audit risk assessment procedures need to be re-emphasized to the audit
staff. The audit documentation for 5 of the 10 audits that we reviewed contained no audit
risk assessment. The five reports are:

• 	 C-IN-MMS-0007-2008 - Mineral Management Service: Royalty-in-Kind Program's
                         Oil Volume Verification Process

• 	 C-IN-MOA-OOIO-2008 - DOl's Accountability and Preservation of Museum
                         Collections

• 	 VI-EV-VIS-0003-2009 - Monitoring of Capital Improvements Projects - Virgin
                          Islands; Port Authority

•   K-CX-NPS-0006-2009 -	 Westwind Contracting, Inc. Settlement Proposal

•   ER-IN-OSS-0009-2009 -	 International Technical Assistance Program

Audit risk is the possibility that the auditors' findings, conclusions, recommendations, or
assurance may be improper or incomplete, as a result of factors such as insufficient or
inappropriate evidence, an inadequate audit process or intentionally omitted or
misleading information. Government Auditing Standards require auditors to plan the
audit to reduce audit risk to an appropriate level. Government Auditing Standards also
require auditors to assess audit risk by gaining an understanding of internal control as it
relates to the specific objectives and scope of the audit. In addition, the DOl OIG Audit
Memorandum No. 05-0A-2008, Audit Risk, states: "During audit planning, the audit
team must assess audit risk ..." The Audit Memorandum establishes policy and provides
detailed procedures for assessing audit risk.

       Recommendation 1

       We recommend that the DOl OIG management ensure that during the planning
       stage, audit teams complete and document an audit risk assessment for all
       Government Auditing Standards audits.

       Views of Responsible Office: Agree

Sampling Methodology

We found that the DOl OIG audit reports and the corresponding working papers did not
always include an adequate description of the sampling methodology used in conducting
                                                                               Enclosure 1
                                                                               Page 2 of3
the audits. Two of the 10 audits that we reviewed did not contain a sampling
methodology. The two reports are:

• 	 C-IN-MMS-0007-2008 - Mineral Management Service: Royalty-in-Kind Program' s
                         Oil Volume Verification Process

• 	 VI-EV -VIS-0003-2009 - Monitoring of Capital Improvements Projects - Virgin
                           Islands; Port Authority

Government Auditing Standards state that when the sampling methodology supports the
auditors' findings, conclusions or recommendations, the auditors should describe the
sampling design and state why the design or plan was chosen, including whether the
results can be projected to the intended population. Without an adequate description of
the sampling methodology, reviewers and readers may not understand the work
conducted and the significance of the findings. We could not find any DOl OIG policies
or procedures explaining the methodology of sampling or the requirement to include a
description of the methodology in audit reports.

Report No. C-IN-MMS-0007-2008 states that to accomplish the objectives, samples of
sales proprieties were selected. However, no description of the sampling methodology is
mentioned in the audit report. In addition, Strategic Petroleum Reserve sampling and
testing was performed and referred to in the working papers; however, the sampling
methodology was not mentioned in the report.

Report No. VI-EV-VIS-0003-2009 states that 12 projects were selected for sampling.
Within another part of the report, we found that the total number of projects was 109.
There was no sampling methodology mentioned in the audit report or working papers. In
addition, the referencer's comment sheet requested an explanation and justification for
the sample selected. The comment given was that it was randomly sampled. However,
this is not shown in the working papers.

None of the reports or working papers stated whether the sample results could be
projected to the population.

       Recommendation 2

       We recommend that the DOl OIG management: 1) ensure that a sampling
       methodology is described in the audit report and working papers for any audit that
       uses sampling; and, 2) issue a memorandum providing guidance for all of the
       audit offices to include a description of the sampling methodology in their audit
       reports and working papers.

       Views of Responsible Office: Agree
                                                                                 Enclosure 1 

                                                                                 Page 3 of3 

Report Timeliness

We found that the DOl OIG did not comply with Government Auditing Standards and its
own audit policy and procedures regarding timeliness. Four of the 10 audits reviewed
were not issued in a timely manner. Those reports are:

    Report Number                      Number of Months over the 1 Year Period
•   C-IN-MMS-0007-2008                 11 months
•   VI-EV -VIS-0003-2009               6 months
•   C-IN-MOA-00I0-2008                 4 months
•   ER-IN-OSS-0009-2009                3 months

Government Auditing Standards state to be of maximum use, providing relevant evidence
in time to respond to officials of the audited entity, legislative officials, and other users'
legitimate needs is the auditors' goal. Likewise, the evidence provided in the report is
more helpful if it is current. Therefore, the timely issuance of the report is an important
reporting goal for auditors.

DOl OIG Audit Memorandum No. 04-0A-2005, Audit Timeliness and Milestones, states
that the timely issuance of audit reports is a key factor in their usefulness to Departmental
managers. Significant delays increase the risk that the audit information is outdated or
not meaningful to current conditions.

The Audit Memorandum further states that the OIG policy for the maximum elapsed days
from start of the review (audit or evaluation) to issuance of the final report is 1 year. The
I-year timeframe pertains to complex internal audits and evaluations. Smaller scale
evaluations, audits of contracts and grants, and other limited scope reviews should be
completed within shorter periods.

Also, the Audit Memorandum states that the timeline for issuing final reports within 1
year of the start date begins with the date of the entrance conference and ends with the
issuance of the final audit report. The audit team should present options to complete the
review within 1 year if delays are expected. Some of these options include adding
additional staff, reducing the scope, and revising the objectives. Also, the automated
work paper software, AutoAudit, includes a number of timeline steps to allow for
monitoring of the issuance of the final report within 1 year.

       Recommendation 3

       We recommend that DOl OIG management: 1) ensure that audit reports are
       issued on a timely basis, as required by Government Auditing Standards and DOl
       OIG policies; and, 2) document factors that will delay the issuance of a timely
       report and request additional needs to meet the I-year timeframe.

       Views of Responsible Office: Agree
                                                                             Enclosure 2
                                                                             Page 1 of2
                           SCOPE AND METHODOLOGY

Scope and Methodology

We tested compliance with the DOl OIG audit organization's system of quality control to
the extent we considered appropriate. These tests included a review of 10 of 33 audit and
attestation reports issued during the period October 1,2009, through September 30,2010,
and semiannual reporting periods ending March 31,2010 and September 30,2010. We
also reviewed the internal quality control reviews performed by the DOl OIG.

In addition, we reviewed the DOl OIG's monitoring of engagements performed by IPAs
where the IPA served as the principal auditor during the period October 1, 2009, through
September 30, 2010. During the period, the DOl OIG contracted for the audit of its
agency's Fiscal Year 2008 and 2009 financial statements.

We conducted our review at the DOl OIG headquarters office in Washington, DC and
visited the Herndon, Virginia office.

Reviewed Engagements Performed by the DOl OIG

Report Number              Report Date    Report Title

ER-IN-BIA-0014-2009        11110/2009    OIG's Independent Report on the "Office of
                                         National Drug Control Policy Performance
                                         Summary Report - BIA"

Q-IN-OST-0001-2009         11118/2009     Independent Auditors' Report on the Tribal
                                          and Other Trust Fund Financial Statement
                                          Audit for Fiscal Year 2009 and Fiscal Year
                                          2008

K-CX-NPS-0006-2009         11/24/2009    Westwind Contracting, Inc. Settlement
                                         Proposal for Termination for Convenience of
                                         the Government under Contract No.
                                         C5297080232, Hole in the Donut Remediation
                                         in Everglades, With the National Park Service

C-IN-MOA-0010-2008         12116/2009    DOl's Accountability and Preservation of
                                         Museum Collections
                                                                           Enclosure 2
                                                                           Page 2 of2


Report Number           Report Date 	 Report Title

R-GR-FWS-0002-2010      02118/2010 	    U.S. Fish and Wildlife Service Wildlife and
                                        Sport Fish Restoration Program Grants
                                        Awarded to the State of Massachusetts,
                                        Department of Fish and Game, Division of
                                        Fisheries and Wildlife

C-IN-MMS-0007-2008      05/25/2010 	    Mineral Management Service: Royalty-in-Kind
                                        Program' s Oil Volume Verification Process

R-GR-FWS-0003-2010      07/09/2010 	    U.S. Fish and Wildlife Service Wildlife and
                                        Sport Fish Restoration Program Grants
                                        Awarded to the State of Illinois, Department of
                                        Natural Resources

ER-IN-OSS-0009-2009     07/2112010 	    Audit of the International Technical Assistance
                                        Program

VI-EV -VIS-0003-2009    09/08/2010 	    Monitoring of Capital Improvements Projects ­
                                        Virgin Islands; Port Authority - Government
                                        of the Virgin Islands

Reviewed Monitoring Files of the DOl OIG for Contracted Engagements

Report Number          Report Date 	 Report Title

X-IN-MOA-018-2009      11/16/2009 	    Independent Auditors' Report on the Financial
                                       Statements for Fiscal Years 2009 and 2008
                                                                                               Exhibit A

              OFFICE OF
              INSPECTOR GENERAL 

                  . .DE      T     E T        F""     - I --E       OR

                                                                                      JUL ;22 2011
Mr. Michael R. Esser
Assistant Inspector General for Audits
U.S. Office of Personnel Management
1900 ESt. NW
Washington, DC 20415

Re: 	   Response to Draft Report on the System Review of the U.S. Department of the Interior
        Office of Inspector General

Dear Mr. Esser:

        Thank you for the opportunity to comment on your draft report, presenting the results of
your office's External Peer Review of the U.S. Department of the Interior Office of Inspector
General, Office of Audits, Inspections, and Evaluations. We are pleased that your office issued
an opinion that our system of quality control for the year ended September 30, 2010 has been
suitably designed and complied with to provide us with reasonable assurance of performing and
reporting in conformity with applicable professional standards in all material aspects. We also
appreciate the professionalism that was displayed by your team during the course of your review.

       We are committed to maintaining high quality audits and the peer review process allows
us an excellent opportunity to assess and improve our performance. We agree with the conditions
and recommendations presented in your draft report. A memorandum transmitting the results of
your review will be issued and actions will be taken to address the areas of audit risk assessment,
sampling methodology, and report timeliness. We plan to revise both oUr policies and quality
assurance review process and will emphasize the conditions noted in your draft report. We plan
on having the new policies issued and our new quality assurance process in place by September
30, 2011.

        If you have any questions concerning this response, please call me at 202-208-5512.

                                                              Sincerely,



                                                              Kimberly Elmore
                                                              Assistant Inspector General
                                                              for Audits, Inspections, and Evaluations




                          Office of Audits, Inspections, and Evaluations I Washington, DC
